No. - - IN THE SUPREME COURT OF THE UNITED STATES

WILMAR RENE DURAN GOMEZ, PETITIONER
V.

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE

I certify that all parties required to be served have been served with copies of the
petition for a writ of certiorari. Consistent with the Court's November 20, 2020 Guidance
Concerning Clerk's Office Operation, service has been made via email.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 3, 2021.

/s/ Cullen Macbeth
Cullen Macbeth
Assistant Federal Public Defender
Federal Public Defender's Office
District of Maryland
6411 Ivy Lane, Suite 710
Greenbelt, MD 20770
(301) 344-0600
cullen_macbeth@fd.org

Service List

Jason Smith
Assistant United States Attorney
1000 Louisiana, Suite 2300
Houston, TX 77002
(713) 567-9102
jason.smith2@usdoj.gov
Counsel for Respondent

